 DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Office of Inspector General

                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203
                                                                          (617) 565-2684
September 14, 2011

Report Number: A-01-11-00520

Mr. Neal Burkhead
Vice President and J11 Program Manager
Palmetto GBA, LLC
17 Technology Circle
Columbia, SC 29203-9591

Dear Mr. Burkhead:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Outpatient Claims Processed by Palmetto GBA
That Included Procedures for the Insertion of Multiple Units of the Same Type of Medical Device
for Calendar Years 2008 and 2009. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
David.Lamir@oig.hhs.gov. Please refer to report number A-01-11-00520 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Neal Burkhead


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF OUTPATIENT CLAIMS
PROCESSED BY PALMETTO GBA THAT
     INCLUDED PROCEDURES
 FOR THE INSERTION OF MULTIPLE
   UNITS OF THE SAME TYPE OF
MEDICAL DEVICE IN CALENDAR YEARS
         2008 AND 2009



                        Daniel R. Levinson
                         Inspector General

                         September 2011
                          A-01-11-00520
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                               EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program. CMS employs Medicare contractors, including Palmetto GBA, LLC
(Palmetto), to process and pay hospital outpatient claims using the Fiscal Intermediary
Shared System (FISS).

CMS implemented an outpatient prospective payment system (OPPS) for hospital
outpatient services. Under the OPPS, Medicare pays for hospital outpatient services on a
rate-per-service basis that varies according to the ambulatory payment classification
group to which the service is assigned. Under the OPPS, outlier payments are available
when exceptionally costly services exceed established thresholds.

Common medical devices implanted during outpatient procedures include cardiac
devices, joint replacement devices, and prosthetics. Generally, a provider implants only
one cardiac device during an outpatient surgical procedure. Under the OPPS, payments
to hospitals for medical devices are “packaged” into the payment for the procedure to
insert the device. Hospitals are required to report the number of device units and related
charges accurately on their claims. The failure to report device units and related charges
accurately could result in incorrect outlier payments.

Our audit covered $155,055 in Medicare outlier payments to hospitals for 45 claims for
outpatient procedures that included the insertion of more than 1 of the same type of
medical device. The 45 claims had dates of service during calendar years (CY) 2008 and
2009.

OBJECTIVE

Our objective was to determine whether Medicare paid hospitals correctly for outpatient
claims processed by Palmetto that included procedures for the insertion of multiple units
of the same type of medical device.

SUMMARY OF FINDINGS

Of the 45 claims that we reviewed, Medicare paid 32 correctly for outpatient claims
processed by Palmetto that included procedures for the insertion of multiple units of the
same type of medical device. However, for the remaining 13 claims, Medicare did not
pay hospitals correctly. These incorrect payments were due to hospitals overstating the
number of units and related charges, resulting in excessive or unwarranted outlier
payments for 12 claims; hospitals also understated the number of units and related
charges, resulting in a reduced outlier payment for 1 claim.

For the 13 claims, Palmetto made net overpayments to hospitals totaling $40,678.
Incorrect payments occurred because hospitals had inadequate controls to ensure that

                                             i
they billed accurately for claims that included the insertion of medical devices. In
addition, Medicare payment controls in the FISS were not always adequate to prevent or
detect incorrect payments.

RECOMMENDATIONS

We recommend that Palmetto:

   •   recover the $40,678 in net overpayments for 13 inaccurate claims,

   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and

   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto concurred with our findings and
recommendations and outlined steps for implementing our recommendations. Palmetto’s
comments are included in their entirety as the Appendix.




                                            ii
                                             TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
             Hospital Outpatient Prospective Payment System ............................................1
             Medical Devices................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope ................................................................................................................2
              Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PROGRAM REQUIREMENTS ................................................................................3

          PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY .............................4

          CAUSES OF INCORRECT PAYMENTS ................................................................4
               Inadequate Controls at Hospitals ...................................................................4
               Inadequate Medicare Payment Controls ........................................................4

          RECOMMENDATIONS ...........................................................................................5

          PALMETTO GBA COMMENTS .............................................................................5

APPENDIX

          PALMETTO GBA COMMENTS




                                                                ii
                                   INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act),
provides health insurance coverage to people aged 65 and over, people with disabilities,
and people with end-stage renal disease. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. Part B of Title XVIII provides supplementary
medical insurance for medical and other health services, including the coverage of
hospital outpatient services.

CMS contracted with Palmetto GBA, LLC (Palmetto) to, among other things, process
and pay claims submitted by hospital outpatient departments. Palmetto uses the Fiscal
Intermediary Shared System (FISS) for processing hospital claims. Palmetto processes
claims for California, Hawaii, Nevada, American Samoa, Guam, Northern Mariana
Islands, North Carolina, South Carolina, West Virginia, Virginia, and Ohio.

Hospital Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the
Medicare, Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced
Budget Refinement Act of 1999, P.L. No. 106-113. CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS was
effective for services furnished on or after August 1, 2000. Under the OPPS, Medicare
pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). All services and items within an
APC group are comparable clinically and require comparable resources. Under the
OPPS, outlier payments are available when exceptionally costly services exceed
established thresholds.

Medical Devices

Common medical devices implanted during outpatient procedures include cardiac
devices, joint replacement devices, and prosthetics. Generally, a provider implants only
one cardiac device, such as a pacemaker or implantable cardioverter defibrillator (ICD),
during an outpatient surgical procedure.

Under the OPPS, payments to hospitals for medical devices are “packaged” into the
payment for the procedure to insert the device. Although separate payment is not made
for the device, hospitals are required to report the number of device units and related
charges accurately on their claims. The failure to report device units and related charges
accurately could result in incorrect outlier payments.




                                             1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare paid hospitals correctly for outpatient
claims processed by Palmetto that included procedures for the insertion of multiple units
of the same type of medical device.

Scope

Our audit covered $155,055 in Medicare outlier payments to hospitals for 45 claims for
outpatient procedures that included the insertion of more than 1 of the same type of
medical device. The 45 claims had dates of service during calendar years (CY) 2008
and 2009.

Our objective did not require an understanding or assessment of the complete internal
control structures of the hospitals or Palmetto. Therefore, we limited our review at
hospitals to the controls related to preparing and submitting Medicare claims for
procedures that included the insertion of selected medical devices. We limited our
review at Palmetto to the controls related to preventing or detecting Medicare
overpayments to hospitals for outpatient claims with overstated medical device units.

Our fieldwork included contacting Palmetto and the 29 hospitals that submitted the 45
claims in our review. We conducted our fieldwork from September 2010 through
February 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted hospitals’ outpatient paid claim data from CMS’s National Claims
        History file for CYs 2008 and 2009;

   •    developed computer applications to identify outpatient claims processed by
        Palmetto that included procedures for the insertion of multiple units of the same
        type of medical device and identified 45 claims;

   •    reviewed the hospitals’ itemized bills for 45 claims and selected beneficiaries’
        medical records to determine whether the hospitals submitted the claims with the
        correct device units and associated charges;

   •    reviewed CMS’s Common Working File claims history for the 45 claims to
        validate the results of our computer match and to verify that the selected claims
        had not been canceled;

                                             2
   •   contacted representatives of the 29 hospitals that submitted the claims to verify
       whether the claims were billed correctly and to determine the causes of
       noncompliance with Medicare billing requirements;

   •   contacted Palmetto to obtain an understanding of edits in the FISS and other
       controls intended to prevent or detect overpayments to hospitals;

   •   calculated the correct payments for claims that needed payment adjustments; and

   •   discussed the results of our review with Palmetto.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

Of the 45 claims that we reviewed, Medicare paid 32 correctly for outpatient claims
processed by Palmetto that included procedures for the insertion of multiple units of the
same type of medical device. However, for the remaining 13 claims, Medicare did not
pay hospitals correctly. These incorrect payments were due to hospitals overstating the
number of units and related charges, resulting in excessive or unwarranted outlier
payments for 12 claims; hospitals also understated the number of units and related
charges, resulting in a reduced outlier payment for 1 claim.

For the 13 claims, Palmetto made net overpayments to hospitals totaling $40,678.
Incorrect payments occurred because hospitals had inadequate controls to ensure that
they billed accurately for claims that included the insertion of medical devices. In
addition, Medicare payment controls in the FISS were not always adequate to prevent or
detect incorrect payments.

PROGRAM REQUIREMENTS

Section 1862(a)(1)(A) of the Act states that no payment may be made under Part A or
Part B for any expenses incurred for items or services that are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning
of a malformed body member.

The Medicare Claims Processing Manual, Pub. No. 100-04, ch. 1, §80.3.2.2, requires
that claims be completed accurately to be processed correctly and promptly.

Federal regulations (42 CFR §419.43(d)) provides for outlier payments for hospital
outpatient services, in addition to the prospective payment, when a hospital’s charges
exceed certain thresholds.

                                             3
PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY

Hospitals incorrectly billed medical device units for 13 of the 45 claims, resulting in net
overpayments totaling $40,678. These billing errors led to overstated charges, resulting
in excessive or unwarranted outlier payments for 12 claims, and understated charges,
resulting in an underpayment for 1 claim.

The following are examples of incorrectly billed units:

   •   One hospital billed for two automatic implantable cardioverter defibrillator
       (AICD) units with charges that totaled $130,200. However, the hospital should
       have billed for one AICD unit with charges of $65,100. The additional charges
       for the second AICD unit resulted in an unwarranted outlier payment of $8,676.04
       to the hospital.

   •   One hospital billed for six units of neurostimulator leads with charges that totaled
       $42,750, but it should have billed for seven units with charges of $49,875. The
       omission of the charge for the additional unit resulted in the hospital receiving an
       outlier payment that was $10,177.52 less than it was entitled.

CAUSES OF INCORRECT PAYMENTS

Inadequate Controls at Hospitals

The 11 hospitals that received incorrect payments had not established the necessary
controls to ensure that they billed the correct device units for outpatient claims processed
by Palmetto that included procedures for the insertion of medical devices. Officials of
these hospitals stated that their billing personnel had billed units incorrectly for one or
more of the following reasons:

   •   Personnel made isolated data entry errors.

   •   Multiple personnel mistakenly entered the same device charges on the same
       claim.

   •   Undetected flaws in the design or implementation of some billing systems caused
       some claims to be submitted with multiple medical device units.

Inadequate Medicare Payment Controls

Medicare payment controls were not always adequate to prevent or detect incorrect
payments. Specifically, CMS established, as part of its FISS prepayment controls, unit
amount thresholds for medically unlikely edits that are too high for certain medical
devices (i.e., currently, there is a two-unit threshold for pacemakers).



                                             4
RECOMMENDATIONS

We recommend that Palmetto:

   •   recover the $40,678 in net overpayments for the 13 inaccurate claims,

   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and

   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto concurred with our findings and
recommendations and outlined steps for implementing our recommendations. Palmetto’s
comments are included in their entirety as the Appendix.




                                            5
APPENDIX
                              APPENDIX: PALMETTO GBA COMMENTS 

                                                                                                                                  Page 1 of 2

            Palmetto GBA~                                                                                                      Bruce W . Hughes
                   PA RTN ERS IN   EXCELLE N CE ~                                                          i" I(·.,id H H. and n l iet Operatin9 Of ike I




August 25, 201 J

Michael J. Annstrong
Office of Inspector General
Office of Audit Services, Region 1
John F. Kennedy Federal Building Room 2425
Boston, MA 02203

Reference: Report No. A-OI-II-00520

Dear Mr. Armstrong;

This letter is in response to the recent Office of Inspector General (OTG ) report entitled "Review of
Outpatient Claims Processed by Palmetto GBA. LLC That Included Procedures for the Insertion                                                   qf
Multiple Units a/the Same Type 0/ Medical Device/or Calendar Years 2008 and 2009 ". We appreciate
the feedback your report provided and are committed to continuously improving our service to the
Medicare beneficiaries and providers we serve.

The audit covered $155,055 in Medicare outlier payments to hospitals for 45 claims for outpatient
procedures that included the insertion of more than one of the same type of medical device. The 45
claims had dates of service during calendar years (CY) 2008 and 2009

Of the 45 claims reviewed, Medicare paid 32 correctly for outpatient services. Medicare did not pay the
remaining 13 hospital claims correctly. These incorrect payments were due to hospitals overstating or
understating the nwnber of units and related charges. These errors resulted in excessive or unwarranted
outlier payments for 12 claims and a reduced outlier payment for one claim, thus the following
recommendations :

   • 	 Recover the $40,678 in net overpayments                fOI'   13 inaccurate claims.

       Palmetto GBA Response:
       All claims identified in the audit are adjusted and completed as of September 20 I O.

   • 	 Continue to alert hospitals of the importance of coding outpatient claims with the correct
       number of medical device units,

       Palmetto GBA Re,\ponse:

       • 	 Our recent CERT/Claim Submission Errors One-on-One sessions focused on documentation
           and improper payments.
       • 	 Our Provider Outreach and Education (POE) Tour for 2011 continues to fo cus on our largest
           specialties (Inpatient Hospitals and Skilled Nursing Facilities) which hi storically contribute
           to the top errors.


                                      www.palmettogba.comlpost Office Box 100134
                                             ISO 9001 :2000 Columbia, South Ca rolina   292 0 2 · 31 31t
                                                                                                      Page 2 of 2
Michael J. Almstrong
August 25, 2011
Page 2




             •   Additional 2011 and 2012 provider olltreach and education events will include seminars and
                 workshops on:
                    o 	 Claims Submission Errors
                    o 	 Billing and Coding
                    o 	 Part B Small and New Provider Billing Training
                    o 	 CERT
                    o 	 Top Denials and Inquiries.

             Palmetto GBA will address claims submission errors on a quarterly basis in our ACTs (what is
             ACTs?) and monthly meetings with hospital Compliance Officers to increase awareness.

          • 	 Work with eMS to strengthen FISS prepayment edits by revising the unit amount
              thresholds for certain medical devices.

          Palmetto GBA Response:

             Palmetto GBA has implemented Medically Unlikely Edits (MUEs), Maximum Allowed Units
             (MAUs), and exclusion edits (e.g. dental, cosmetic). Correct coding has been and continues to be
             discussed in each educational session.

             The link with the full explanation of the edits is listed below.

             http://www.cms.govlNationalCorrectCodlnitEd/08 MUE.asp


  Thank you for providing Palmetto GBA with the opportunity to comment on your report.               If you have
  any questions, please do not hesitate to contact me.

                                                                 Sincerely,

                                                   "----'0          tvv.. u.. (Jl/




  cc: 	     Steven Smetak, COTR, CMS 

            Daniel Dion, CMS 

            Ann Archibald, Palmetto GBA 

            Neal Burkhead, Palmetto GBA 

            Robin Spires, Palmetto GBA 

            Sheri Thompson, Palmetto GBA 



                                        www .palmE.ttogba.comlpost Office Box 100134
                                                150 900~:2000 Columbia, South Carolina 29202'3'l3G
                                                                                                                    I
